TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Customer Account Data Engine 2
                    Database Was Initialized; However, Database
                       and Security Risks Remain, and Initial
                        Timeframes to Provide Data to Three
                       Downstream Systems May Not Be Met



                                          September 27, 2012

                                  Reference Number: 2012-20-109




     This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
      and information determined to be restricted from public release has been redacted from this document
 .


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


THE CUSTOMER ACCOUNT DATA                           WHAT TIGTA FOUND
ENGINE 2 DATABASE WAS INITIALIZED;
                                                    Our review determined that data integrity testing
HOWEVER, DATABASE AND SECURITY                      did not provide assurance that CADE 2
RISKS REMAIN, AND INITIAL                           database data are consistently accurate and
TIMEFRAMES TO PROVIDE DATA TO                       complete. Also, the CADE 2 database design
THREE DOWNSTREAM SYSTEMS MAY                        has not fully met initialization, daily update, and
NOT BE MET                                          downstream interface needs.
                                                    To address the issues identified during testing,
Highlights                                          the IRS developed version 2.2 of the CADE 2
                                                    database. The IRS spent up to $22.3 million on
                                                    database implementation including developing
Final Report issued on
                                                    version 2.2 of the CADE 2 database from
September 27, 2012                                  January through July 2012. The IRS does not
                                                    track cost at the development activity level;
Highlights of Reference Number: 2012-20-109         therefore, TIGTA could not determine the actual
to the Internal Revenue Service Chief               cost for version 2.2 of the CADE 2 database.
Technology Officer.
                                                    Enhanced security is one of the goals of the
IMPACT ON TAXPAYERS                                 CADE 2 Program. CADE 2 database security
The overall goals for the Customer Account          will be implemented via a role-based access
Data Engine 2 (CADE 2) Program are to               model and the Resource Access Control Facility.
process individual taxpayer account data in a       However, vulnerabilities in the JAVA code could
modernized environment and provide more             result in loss of sensitive taxpayer information,
timely and accurate data to front-line employees.   and remediation of identified security
A transactional database capable of supporting      weaknesses is ineffective.
both tax processing and enterprise-wide data        WHAT TIGTA RECOMMENDED
access is a cornerstone of that effort. In
Transition State 1, the IRS will establish the      TIGTA recommended that the Chief Technology
database and processes will be developed to         Officer: 1) ensure the CADE 2 Program does
keep the database current with daily account        not exit Transition State 1 until the CADE 2
information from the Individual Master File. The    database can provide accurate and complete
database will be able to provide daily updates to   data to the three downstream systems;
the IRS’s key customer service database, the        2) ensure the database design process follows
Integrated Data Retrieval System, and it will be    the Internal Revenue Manual and validate that
able to populate the key compliance analytical      the database design meets business
database, the Integrated Production Model, with     requirements; 3) realign data validation and
more timely data. Incomplete, inaccurate, and       testing efforts with business functionality and
unsecured data on the CADE 2 database will          processes; 4) ensure JAVA code weaknesses
prevent the IRS from providing quality customer     are remediated; 5) ensure privileged accounts
service and could compromise taxpayer data.         are documented, administered, monitored, and
                                                    reviewed in accordance with the Internal
WHY TIGTA DID THE AUDIT                             Revenue Manual or removed from the system;
The overall objective was to review the CADE 2      6) ensure sample tables and default ports are
database implementation and ensure that the         disabled or removed; and 7) enhance the
database was secure, accurate, and complete,        Online 5081 system.
and that prior weaknesses identified were           The IRS agreed with three and partially agreed
corrected or mitigated. This review addresses       with one of the seven recommendations and
the major management challenge of                   corrective actions are planned. The IRS
Modernization.                                      disagreed with three recommendations and
                                                    TIGTA provided comments in the audit report.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Customer Account Data Engine 2 Database
                             Was Initialized; However, Database and Security Risks Remain, and
                             Initial Timeframes to Provide Data to Three Downstream Systems May
                             Not Be Met (Audit # 201220023)

 This report presents the results of our review of the Customer Account Data Engine 2 Database
 Implementation to ensure that the database was secure, accurate, and complete, and that prior
 weaknesses identified were corrected or mitigated. This review addresses the major management
 challenge of Modernization.
 Management’s complete response to the draft report is included in Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                      The Customer Account Data Engine 2 Database Was Initialized;
                        However, Database and Security Risks Remain, and Initial
                       Timeframes to Provide Data to Three Downstream Systems
                                           May Not Be Met




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Design Issues Are Jeopardizing the Ability of the Customer
          Account Data Engine 2 Database to Serve As a Trusted
          Source of Data............................................................................................... Page 3
                    Recommendation 1:........................................................ Page 7

                    Recommendation 2:........................................................ Page 8

                    Recommendation 3:........................................................ Page 9

          Security Weaknesses and Poor Coding Practices in the Customer
          Account Data Engine 2 Database Could Result in the Loss of
          Taxpayer Data ............................................................................................... Page 10
                    Recommendation 4:........................................................ Page 13

                    Recommendations 5 through 7:......................................... Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Management’s Response to the Draft Report ...................... Page 20
         The Customer Account Data Engine 2 Database Was Initialized;
           However, Database and Security Risks Remain, and Initial
          Timeframes to Provide Data to Three Downstream Systems
                              May Not Be Met




                         Abbreviations

CADE 2            Customer Account Data Engine 2
ETL               Extract, Transform, and Load
IDRS              Integrated Data Retrieval System
IMF               Individual Master File
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
TIF               Taxpayer Information File
TS1               Transition State 1
                  The Customer Account Data Engine 2 Database Was Initialized;
                    However, Database and Security Risks Remain, and Initial
                   Timeframes to Provide Data to Three Downstream Systems
                                       May Not Be Met




                                        Background

The Customer Account Data Engine 2 (CADE 2) Program is the top information technology
modernization project in the Internal Revenue Service (IRS). The CADE 2 mission is to provide
state-of-the-art individual taxpayer account processing and data-centric technologies to improve
service to taxpayers and enhance IRS tax administration. CADE 2 will replace the current
Individual Master File (IMF) account settlement system with a modernized, relational database
processing system and become a key component in the IRS’s enterprise-wide, data-centric
information technology strategy. Figure 1 provides the CADE 2 system implementation phases.
                    Figure 1: CADE 2 System Implementation Phases

      Phase                                             Description
   Transition        The IRS will establish a single database that will store all individual
  State 1 (TS1)      taxpayer accounts. Processing will be enhanced to include daily batch
                     processing. The key IRS customer service operational database, the
                     Integrated Data Retrieval System (IDRS), will have the benefit of more
                     timely posted data. The solution will populate the Integrated Production
                     Model analytical data store and provide business users with tools to more
                     effectively use the data for compliance and customer service. Enhanced
                     data security will be in place. Downstream systems that must be modified
                     to support daily processing are included in the scope of the TS1.
    Transition       A single processing system will be implemented. Applications will directly
     State 2         access and update the taxpayer account database, and continued efforts will
                     be made in addressing existing financial material weaknesses. The IRS
                     planned to implement Transition State 2 in January 2014. This date is no
                     longer viable, due to funding delays, but a new date has not been
                     determined.
   Target State      Implement a single system in which all transitional applications are
                     eliminated. The complete solution is also planned to address all the
                     financial material weaknesses. As of April 3, 2012, the IRS had not
                     established a Target State implementation date.
Source: The CADE 2 Program Charter and meetings with the CADE 2 executives.

TS1 will move the IRS away from operating in two tax processing environments – the IMF and
Current CADE – towards a single system for managing individual taxpayer accounts. It has two
major implementation pieces: Daily Processing and Database Implementation. Daily
Processing, which uses IMF files and not the CADE 2 database, went into production in

                                                                                            Page 1
                The Customer Account Data Engine 2 Database Was Initialized;
                  However, Database and Security Risks Remain, and Initial
                 Timeframes to Provide Data to Three Downstream Systems
                                     May Not Be Met


January 2012. IRS management stated that this has resulted in providing faster refunds for
millions of taxpayers and that posted information was viewable on the IDRS within 48 hours of
processing.
Database Implementation, which is the subject of this audit, is in the final testing stage for
version 2.2, which is expected to be placed into production in late 2012. Version 2.1 of the
database was initialized earlier in Calendar Year 2012. IRS management stated that this earlier
version of the database successfully initialized 270 million individual taxpayer accounts and
more than a billion tax modules while balancing to the penny.
Within TS1, the primary deliverable of the CADE 2 Database Implementation project is a
relational database that will store individual taxpayer account data, currently being processed by
the IMF. This database will serve as the trusted source of data for three critical downstream
systems: Corporate File On-Line/Individual Master File On-Line, IDRS Taxpayer Information
File (TIF), and the Integrated Production Model. In Transition State 2, the CADE 2 database
will become the sole source of IMF data and become the system of record for individual tax
account processing, as the IMF entity and tax module files will be retired.
This audit reviewed the steps taken by the IRS to prepare for the CADE 2 Database
Implementation and examined the process for addressing weaknesses and issues within TS1.
This review was performed at the IRS Information Technology headquarters office in
New Carrollton, Maryland, during the period February through June 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                  The Customer Account Data Engine 2 Database Was Initialized;
                    However, Database and Security Risks Remain, and Initial
                   Timeframes to Provide Data to Three Downstream Systems
                                       May Not Be Met




                                   Results of Review

Design Issues Are Jeopardizing the Ability of the Customer Account
Data Engine 2 Database to Serve As a Trusted Source of Data
The CADE 2 database is the cornerstone for all CADE 2 system development. One of the
primary goals of the CADE 2 database is for it to be a trusted source of data. To provide this, it
needs a stable design built to support tax processing functions and the assurance of complete and
accurate data. Without these, the CADE 2 Program will not be successful. In TS1, the CADE 2
database will be initialized with IMF entity and tax module data, updated on a daily basis to keep
it synchronized with the IMF files, and serve as a trusted source of data for selected downstream
systems. The database must, therefore, provide sufficient evidence that its data are accurate and
complete, and that it will provide the design needed for continued data reliability. This will be
critical when CADE 2 transitions into a transactional database processing system and the system
of record for all individual taxpayer accounts.
Our review of the CADE 2 Database Implementation project determined that weaknesses were
found in the data validation process and the database design was not fully validated against
business needs.

Data integrity testing did not provide assurance that CADE 2 data are consistently
accurate and complete
The IRS cannot ensure the data on the CADE 2 database are consistently accurate and complete
despite current control procedures and data integrity testing efforts. The Internal Revenue
Manual (IRM) defines data controls as activities or tasks employed to preserve the accuracy of
data by either deleting, detecting, or preventing operator errors, and by providing assurances that
data are not lost, added, or inadvertently changed.1 The IRM also provides that testing be
conducted to ensure system components are free of logic and design errors, and customer
requirements are satisfied.2 In addition, the IRM requires that business requirements and
business functions be fully documented during the business analysis phase.3
The IRS has data integrity checks in place at several levels of the CADE 2 database: data field
level, record level, account and file level, and Master File level. Figure 2 summarizes the data
integrity checks performed at each of these levels.


1
  IRM 2.5.3, Systems Development - Programing Techniques and Source Code Standards.
2
  IRM 2.6.1, Product Assurance - Test, Assurance and Documentation.
3
  IRM 2.5.13, Systems Development - Database Design Techniques and Deliverables.
                                                                                            Page 3
                   The Customer Account Data Engine 2 Database Was Initialized;
                     However, Database and Security Risks Remain, and Initial
                    Timeframes to Provide Data to Three Downstream Systems
                                        May Not Be Met


        Figure 2: Types of Data Validation Performed on the CADE 2 Database

 Control Level                     Approach                                      Description
 Data Field          Data Integrity Validation                 Validates data values between the
 Level               Approach                                  CADE 2 database and the IMF. Uses a
                                                               combination of manual and systemic data
                                                               compares and data transformation rule
                                                               validation.
 Record Level        Database Referential Integrity            Ensures that every record inserted into a
                     Checks                                    table has a valid relationship to an existing
                                                               account on the database.
 Account and         Balance and Control Procedures            Checks counts and amounts between the
 File Level                                                    IMF source files and the CADE 2
                                                               database. Record counts and module
                                                               balance amounts are checked through the
                                                               use of control records during the Extract,
                                                               Transform, and Load (ETL) process.
 Master File         Database Implementation                   Balances to the IMF Recap Report.
 Level               Simplified Financial Report
Source: Treasury Inspector General for Tax Administration analysis of IRS documents.

 During the first initialization of the CADE 2 database using version 2.1.1 of the data model,
 documentation showed that data validation efforts were adequate at the record level, account and
 file level, and Master File level. Referential integrity was maintained within the database, file
 control records were balanced to the CADE 2 database counts and amounts, and total financial
 assessments, credits, and debits balanced to the IMF Recap Report. However, at the data field
 level, the Data Integrity Validation Approach did not provide assurance that all the data values
 loaded into the CADE 2 database were accurate and complete. This was due to the complexity
 of many of the data transformation rules and embedded business logic contained within IMF data
 fields.
 Manual and systemic data comparisons, when combined, validated approximately 70 percent of
 the data columns on the CADE 2 database against their IMF source values. Systems
 Acceptability Testing tested the remaining 30 percent through data transformation rule tests. The
 IRS acknowledged that these tests could not ensure the accuracy of the remaining 30 percent
 because these tests were limited and did not cover all variations or conditions of transformation
 logic.
 Further, in a May 2012 meeting, IRS management acknowledged that not all variations or
 conditions in these complex data transformations had been identified. The IRS CADE 2 Full

                                                                                                     Page 4
                The Customer Account Data Engine 2 Database Was Initialized;
                  However, Database and Security Risks Remain, and Initial
                 Timeframes to Provide Data to Three Downstream Systems
                                     May Not Be Met


Data Coverage Mapping document mapped data elements to subject areas within the CADE 2
database, but it did not map data elements to core IMF business functions or processes. Thus,
the IRS could not identify data elements that supported some business functions or determine
where business logic may have been embedded in IMF data elements. As a result, the IRS is
encountering unanticipated data values and hidden business logic during the database load and
update process. Without a complete list of all data elements, values, and business processes, the
IRS could not design an adequate strategy for data validation at the data field level.
The CADE 2 database will contain data elements from the IMF entity and tax module files.
However, additional data elements necessary for the IDRS TIF will be loaded into the CADE 2
database during the daily update process. This TIF data will include notice data, which will be
used to address existing financial material weaknesses. To validate this data, the IRS intends to
use an IDRS TIF comparison tool to compare the data extracted from the CADE 2 database to
the data currently being sent to the IDRS TIF by the IMF. Development of the tool was not
completed as of May 2012; therefore, we could not verify the effectiveness of this planned data
validation effort.
Although the IRS designed a fairly comprehensive strategy to check the data integrity of the
CADE 2 database, it did not conduct a proper Business Analysis to align IMF data elements with
business processes and business requirements before attempting to initialize and update the
CADE 2 database. It is therefore impossible for the IRS to verify that the data transformation
rules used to load and update the database are complete and that all embedded business logic and
system conditions contained in IMF data fields are accounted for and tested. Without a
documented inventory of business processes and their supporting data elements, the IRS cannot
verify the accuracy and completeness of the CADE 2 database. The database should not be used
as a trusted source of data until a method to validate the accuracy of the data is developed.

The CADE 2 database design has not fully met initialization, daily update, and
downstream interface needs
A logical data model defines the structures of the data for a database. The logical data model is
designed from data requirements that support a set of business processes derived from business
requirements. The CADE 2 database was designed using the IMF’s DB2 database, the Current
CADE database, and the IMF’s core record layouts. In TS1, the goal was to initialize and update
the CADE 2 database on a daily basis with data from the IMF system. The CADE 2 data
migration was performed through the ETL process, during which data were extracted from the
source IMF system, transformed to fit into the destination CADE 2 database, and loaded into the
CADE 2 database. The ETL process used rules and functions to transform the IMF source data
into the data loaded into the CADE 2 database. Transformation rules and functions should be
developed from an analysis of business functions, business processes, and business requirements.
During initialization of the CADE 2 database in January 2012, the IRS discovered that the
Taxpayer Delinquent Account data field contained embedded business logic and was being used

                                                                                           Page 5
                      The Customer Account Data Engine 2 Database Was Initialized;
                        However, Database and Security Risks Remain, and Initial
                       Timeframes to Provide Data to Three Downstream Systems
                                           May Not Be Met


for more than one purpose and for more than one business process. For years, the IRS policy has
allowed changes to the IMF data structures only once a year; therefore, the IMF developers
would use existing bits and/or bytes of the IMF data structures in order to support new business
requirements. This practice of using embedded business logic was not always documented, and
in this instance led to programming issues during the ETL process. The programming issue
forced the IRS to redesign the database model. The IRS had recorded the Taxpayer Delinquent
Account data field issue in October 2011. However, the database initialization phase proceeded
with version 2.1.1 of the data model without any remedy for the issue. Proceeding with the
database initialization was not in accordance with an independent contractor’s recommendation
that stated: “Database implementation teams do not compromise quality for the sake of hitting
the schedule as this is likely to result in more painful re-work in the future.”
The daily update testing, performed by the IRS in February 2012, revealed two other business
requirements that were not accounted for in the database design. The first was processing where
the IRS overlays data in an original transaction when that transaction is reversed. To
accommodate the recording of the reversal, the IRS had to create a history table on the CADE 2
database. The second missed requirement dealt with taxpayer account merges. The database had
to accommodate the situation where the Social Security Number of the taxpayer account
changed, whether it was due to identity theft or other circumstances. The unique key4 used on
the IMF sequential files could not be used on the CADE 2 relational database because a piece of
the unique key had changed. This impacted database indexes and referential integrity checks.
The IRS had to redesign the database with a new unique key that would not be impacted by
account merges.
During a Program Management Office meeting in June 2012, the IRS acknowledged that it was
having problems with its CADE 2 database interface to the IDRS TIF. The CADE 2 program’s
architecture solution planned to re-use the existing IMF to IDRS TIF interface for the CADE 2
database interface to IDRS TIF. However, the data types being extracted and sent from the
CADE 2 database were not what the IDRS TIF system was expecting. Zeroes, blanks, and null
values were not being transformed correctly; therefore, the IDRS TIF could not process the
incoming CADE 2 database data successfully. As a result, the IRS is re-evaluating its data
strategy for feeding downstream systems and is considering delaying the IDRS TIF interface.
Figure 3 presents a partial CADE 2 database development timeline.




4
    The IMF unique key is a combination of the Taxpayer Identification Number, the type of tax, and the tax year.
                                                                                                             Page 6
                  The Customer Account Data Engine 2 Database Was Initialized;
                    However, Database and Security Risks Remain, and Initial
                   Timeframes to Provide Data to Three Downstream Systems
                                       May Not Be Met


                Figure 3: Partial CADE 2 Database Development Timeline




Source: The CADE 2 Integrated Master Schedule dated May 30, 2012, other IRS documentation, and interviews of
IRS personnel.

To address the issues identified during testing, the IRS developed version 2.2 of the CADE 2
database. The IRS spent up to $22.3 million on database implementation including developing
version 2.2 of the CADE 2 database from January through July 2012. The IRS does not track
cost at the development activity level. Therefore, we could not determine the actual cost for
version 2.2 of the CADE 2 database. These costs could have been avoided by properly
identifying the business requirements up front and including these requirements in the original
design.

Recommendations
The Chief Technology Officer should:
Recommendation 1:  Ensure that the CADE 2 Program does not exit TS1 until the CADE 2
database can provide accurate and complete data to the IDRS TIF, Corporate File
On-Line/Individual Master File On-Line, and to the re-evaluated Integrated Production Model.
        Management’s Response: The IRS agreed with the recommendation. With
        appropriate approvals from the CADE 2 governance committee, the IRS plans to exit
        Milestone 5 according to schedule in September 2012, in order to deploy planned
        Corporate Files On-Line/Individual Master File On-Line and Integrated Production
        Model Reports functionality. The milestone exit will be conditional, however, until such
        time as the IRS has deployed planned IDRS TIF functionality, which will be done upon
        completion of the 2013 Filing Season peak.


                                                                                                     Page 7
               The Customer Account Data Engine 2 Database Was Initialized;
                 However, Database and Security Risks Remain, and Initial
                Timeframes to Provide Data to Three Downstream Systems
                                    May Not Be Met


Recommendation 2:  Ensure that the database design process follows the IRM and validate
that the database design meets business requirements.
      Management’s Response: The IRS disagreed with this recommendation. IRS
      management stated that the database design approach is extremely sound and meets the
      IRM standard. It leverages the legacy IMF, which has undergone years of refinement and
      embodies business requirements that are complete and accurate. The database fully
      supports the business requirements, as the CADE 2 data model was built using historical
      lessons learned from previous successes in the CADE and production data from the IMF.
      An added layer of confidence to the IRS approach was gained by running through
      transformations using real taxpayer data, which further proved out that the data model
      and database design was very strong. The CADE 2 data model design approach provided
      an in-depth understanding of the current nuances of the IRS’s taxpayer data and allowed
      the IRS to easily introduce new fields to address the financial material weakness. In
      total, only seven material change requests to the data model have been approved since it
      was built three years ago. One of these included the change to upgrade to data model
      version 2.2, which was framed as a “redesign” in the Treasury Inspector General for Tax
      Administration’s audit report. In fact, the IRS resolved the issue with a minor
      modification to the data model, which is another clear indicator that the CADE 2 data
      model is stable.
      Office of Audit Comment: The IRM 2.5.13 standard requires that the database design
      process deliver a set of documents:
          a) Decision Analysis and Description Forms.
          b) Task Analysis and Description Forms.
          c) Task/Data Element Usage Matrix.
          d) Data Models.
          e) Entity-Attribute Lists.
          f) Data Definition Lists.
          g) Physical Database Specification Document.
      This set of documents validates that the database design supports the business
      requirements. We did not receive the necessary documents to confirm that the database
      design supports the business requirements. Further, the Executive Status Update on
      September 12, 2012, stated there is a delay in clearing the backlog of defects identified
      during the data validation activities.
       



                                                                                          Page 8
                The Customer Account Data Engine 2 Database Was Initialized;
                  However, Database and Security Risks Remain, and Initial
                 Timeframes to Provide Data to Three Downstream Systems
                                     May Not Be Met


Recommendation 3:  Realign data validation and testing efforts with business functionality
and processes.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that full data coverage mapping and its data validation and testing approach
       leveraged business requirements that are implicit in the IMF and have proven the test of
       time. Additional mapping exercises at the data element level as recommended would add
       little value to the process. As part of the validation approach, the IRS does mock testing
       in production simulation environments. It does testing using production data – a
       sampling of 2.5 million returns – to ensure integrity of data. A considerable portion of
       the integrity testing, for example, has been designed to ensure that outputs from the
       CADE 2 database – through Individual Master File On-Line or Taxpayer Identification
       File outputs (future) – either match the parallel output from the legacy Master File or fall
       into a small set of “acceptable” differences. With the business organization fully engaged
       throughout all phases of this data integrity testing and review, the comprehensive
       top-down and bottom-up approach for data verification has been extremely effective in
       discovering issues, which are certainly to be expected on projects the size and magnitude
       of the CADE 2 system. As correctly described in the report, the functional (Systems
       Acceptability Testing) tests are also verifying whether the transformation rules were
       implemented per specification. While it is not reasonable to think that any validation
       approach will cover every possible combination and permutation of those rules, it
       provides reasonable risk mitigation to complement the IRS’s high-volume data validation
       testing.
       Office of Audit Comment: We agree that business requirements are implicit in IMF
       data. However, we found no evidence of these requirements being traced to either data
       elements on the CADE 2 database or the transformation rules used to load IMF data into
       the CADE 2 database. Without verifiable evidence, data elements and values may have
       been missed. The IRS’s data integrity plan noted that the more complex data
       transformation rules were tested by Systems Acceptability Testing and that, for many of
       these fields, Systems Acceptability Testing could not cover all the permutations or
       conditions of the transformation logic. Therefore, there is no way of knowing which data
       fields or values may have been missed or left untested, or what business requirements
       they were needed to support. Only an alignment of data elements to business
       functionality and a testing effort based on that alignment would ensure the degree of data
       validation necessary for the CADE 2 database to become the IMF’s authoritative file of
       record.




                                                                                            Page 9
                   The Customer Account Data Engine 2 Database Was Initialized;
                     However, Database and Security Risks Remain, and Initial
                    Timeframes to Provide Data to Three Downstream Systems
                                        May Not Be Met


Security Weaknesses and Poor Coding Practices in the Customer
Account Data Engine 2 Database Could Result in the Loss of
Taxpayer Data
Enhanced security is one of the goals of the CADE 2 Program. CADE 2 database security will
be implemented via a role-based access model and the Resource Access Control Facility.5
Security will remain a key concern until role-based access is developed and fully implemented
across the IRS.

Vulnerabilities in the JAVA code could result in loss of sensitive taxpayer
information
In designing systems, the IRS has several security requirements from multiple sources that need
to be met. The National Institute of Standards and Technology publishes the Federal
Information Processing Standards that provide the requirements for encryption to be used by
governmental systems to prevent anyone without the necessary credentials from being able to
ascertain the data stored on computer systems.
The IRS and the Department of the Treasury also have established standards for systems
operating on their networks. For example, one IRS policy requires that passwords must be
changed after a set number of days and that the password must exceed a specific number of
characters and include certain types of characters. Another requirement is that test code and
example database tables and components must be removed from an application.
In October 2011, two independent contractors conducted source code security reviews of the
balance and control module. Figure 4 provides the JAVA code weaknesses identified by the
source code security reviews.




5
 An IBM security system that provides access control and auditing functionality for the z/OS and z/VM operating
systems.
                                                                                                        Page 10
                The Customer Account Data Engine 2 Database Was Initialized;
                  However, Database and Security Risks Remain, and Initial
                 Timeframes to Provide Data to Three Downstream Systems
                                     May Not Be Met


                             Figure 4: JAVA Code Weaknesses

         High Risk                     Moderate Risk                           Low Risk
      SQL Injection            Bug: Incorrect Logical                 Dead Code
                                 Operator                               Detailed Error
                                Insecure Algorithm                      Messages
                                Insufficient Input Validation          Improper Logging
                                Insufficient Password                  Information Exposure
                                 Management                             Test Code
                                Use of Inner Classes                   Unreleased Resources
  Source: Contractor Source Code Review, IRS Wage and Investment Business Unit’s CADE 2 Database
  Implementation TS-1 JAVA Code, Balance and Control Module Core Module.

Both contractors recommended that the weaknesses identified in Figure 4 be corrected. The
CADE 2 Governance Board deemed the overall risk to the database application as low stating the
code is hard to exploit and that it will be removed after the second database initialization. The
Governance Board accepted the security weaknesses contained in the JAVA initialization code
and will not take any remediation actions. IRS management also advised that the JAVA code
was developed for one-time use.
However, the IRS has used this JAVA code multiple times in testing. The JAVA code was also
used to initialize the production database in March 2012 with data model version 2.1.1 and it will
be used to initialize the database with data model version 2.2 in the summer of 2012. Based on
the utilization of this JAVA code, it does not appear to have been developed for one-time use.
Remediation of the weaknesses will enhance the JAVA database initialization balancing and
control code and enhance the security of the database. Ineffective password, incorrect logical
operator statement, dead code, and test code could result in the loss of Personally Identifiable
Information data, loss of reputation, and loss of taxpayers’ trust. Dead code also could impact
performance of the database initialization, and test code could be executed during initialization.
This could result in data not being accurate or complete in the CADE 2 database.

Remediation of identified security weaknesses is ineffective
The IRS performed mainframe database security testing on its IBM mainframe systems using the
IBM Guardium scanner in December 2011 and March 2012. The Guardium scanner reviewed
all sub-systems on the database management system, including CADE 2. As the scan
encompassed more than just CADE 2, the weaknesses related specifically to the CADE 2
subsystem could not be easily identified. The March 2012 Guardium scan identified
67 weaknesses, of which 49 were deemed critical and 18 were deemed major. We compared the
critical weaknesses identified in the December 2011 and March 2012 scans and concluded the
weaknesses were mostly repeat findings. Figure 5 summarizes the comparison of the scan
results.

                                                                                                   Page 11
                      The Customer Account Data Engine 2 Database Was Initialized;
                        However, Database and Security Risks Remain, and Initial
                       Timeframes to Provide Data to Three Downstream Systems
                                           May Not Be Met


                            Figure 5: December 2011 Versus March 2012
                               Guardium Scan Identified Weaknesses
       Date             Scan Type          Number of Critical          Number of Major         Total Identified
      of Scan                                Weaknesses                  Weaknesses             Weaknesses
     December 
       2011
                     Privileged Users                47                          2                      49
                     Configuration                    2                         16                      18
 March 2012
                     Privileged Users                47                          2                      49
                     Configuration                    2                         16                      18
Source: Treasury Inspector General for Tax Administration analysis of the Guardium scan results.

 Weaknesses identified among privileged user accounts included users with unauthorized access
 to tables, packages, and files. Configuration weaknesses are related to default ports and an
 enabled demo table. The IRM states that default sample databases, along with any associated
 objects and user accounts are to be removed.6 These default databases and tables utilize default
 accounts, passwords, and ports. In addition, default ports with known vulnerabilities should not
 be utilized.7 Figure 6 provides examples of repeat weaknesses that were identified by the
 Guardium scanner.
             Figure 6: Examples of Repeat Weaknesses Identified By Guardium

              Rule Description                                      Number of Exceptions
                                                      December 2011                       March 2012
      LOAD privilege has been                                 104                               111
      granted to unauthorized users.
      SYSADM privilege has been                                3                                 3
      granted to unauthorized users.
      CREATEDBA privilege has                                  13                               13
      been granted to unauthorized
      users.
      One or more sample databases                             6                                 6
      have been found.
     Source: Treasury Inspector General for Tax Administration analysis of the Guardium scan results.


 6
     IRM 10.8.21, Information Technology (IT) Security - Database Security Policy.
 7
     IRM 10.8.21, Information Technology (IT) Security - Database Security Policy.
                                                                                                         Page 12
                      The Customer Account Data Engine 2 Database Was Initialized;
                        However, Database and Security Risks Remain, and Initial
                       Timeframes to Provide Data to Three Downstream Systems
                                           May Not Be Met


Privileged user accounts are those accounts with elevated privileges which are used to maintain
and administer systems or to perform tasks. Privileged user accounts include service, database
administrator, and system administrator accounts. The Online 5081 system is used to record all
access requests and document the semi-annual review of privileged user accounts as required by
the IRM.8
We reviewed the administration of privileged user accounts by selecting a judgmental sample of
five service accounts and five database administrator accounts.9 Supporting evidence for the
five service accounts were not documented in the Online 5081 system. Therefore, we could not
identify the purpose of these accounts. The Online 5081 system retains only the last review date
so we were unable to verify that the semi-annual reviews were performed on all 10 privileged
user accounts. Further, we were unable to determine if a privileged user access authority is
appropriate and commensurate with job role and responsibilities as this information was not
available in the Online 5081 system. This could result in unauthorized access and loss of
Personally Identifiable Information, unauthorized changes to the database, and loss of data
integrity.
The CADE 2 database was developed and implemented in a short time period and accounts were
migrated from existing legacy systems. As a result, default tables and ports were overlooked and
were not removed. In addition, when the IRS migrated to the Online 5081 system, validation for
accuracy and completeness was not conducted and historical records were lost. In addition,
using default ports and enabling a demo table increases the IRS’s vulnerability.

Recommendations
The Chief Technology Officer should ensure:
Recommendation 4: JAVA code weaknesses are remediated to enhance security and
efficiency of the JAVA code.
           Management’s Response: The IRS agreed with this recommendation. Although the
           CADE 2 governance has assessed the actual code weakness as low and a risk-based
           decision was made to accept it, there are processes now in place where the developers
           provide the code to the Cybersecurity organization for review prior to code promotion.
           The Cybersecurity organization provides weakness feedback and the cycle is repeated
           until all code weaknesses have been addressed. Additionally, the developers now use an
           automated code review tool as part of their own development process. Finally, a decision
           (i.e., fix the code, remove it permanently, or accept the risk) will be made as to the final
           disposition of this code prior to the CADE 2 Milestone 5 exit.


8
    IRM 10.8.1, Information Technology (IT) Security - Policy and Guidance.
9
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 13
               The Customer Account Data Engine 2 Database Was Initialized;
                 However, Database and Security Risks Remain, and Initial
                Timeframes to Provide Data to Three Downstream Systems
                                    May Not Be Met


Recommendation 5: Privileged user accounts are properly documented, administered,
monitored, and reviewed in accordance with the IRM or removed from the system.
      Management’s Response: The IRS agreed with this recommendation. The IRS
      stated that it should be noted that the Treasury Inspector General for Tax Administration
      did not take into account, as part of this audit, any risk-based decisions around privileged
      user accounts or the fact that the IBM Guardium scanner’s predefined “critical”
      weaknesses levels are not necessarily correct for the CADE 2 environment.
      Notwithstanding, enterprise-level remediation plans are being developed to address
      validated scan findings.
      Office of Audit Comment: Our analysis was based on the aggregation of the
      weaknesses identified in each rule by the Guardium scan dated December 2011 and
      March 2012 and not the default rating by the IBM Guardium scan.
Recommendation 6: Sample tables and default ports are disabled or removed prior to the
CADE 2 Program exiting TS1.
      Management’s Response: The IRS disagreed with this recommendation. The IRS
      stated that IRM 10.8.21.5.4.2 does not explicitly list the use of default ports as forbidden.
      Changing the default DB2 port is a massive technology undertaking and does not add
      significantly to the level of security; therefore, doing so should not be taken lightly.
      Additionally, the default DB2 port impacts all risk-based applications on the Master File
      platform, not just CADE 2, and changes could jeopardize access to vital tax
      administration applications. Nonetheless, as stated in Corrective Action 5, changing the
      default port will be taken into consideration as part of an enterprise risk mitigation
      remediation plan.
      Office of Audit Comment: Ports with known vulnerabilities should not be used when
      possible. If these ports are to be used in production, the port setting should be set to
      “disable broadcast.” In addition, default tables were identified in the December 2011
      Guardium scan. The same default tables were identified in the March 2012 Guardium
      scan. The IRM states default tables should be disabled or deleted.
Recommendation 7: The Online 5081 system should be enhanced to retain and display the
last two review dates.
      Management’s Response: The IRS partially agreed with this recommendation. The
      IRS is reviewing the possibility of loss of historical records during the migration to the
      Online 5081 system, as reflected in the audit report. If, upon completion of that review,
      the IRS finds significant risks to the CADE 2 database, the Chief Technology Officer will
      work with the Director, Agency-wide Shared Services, and the owner of the Online 5081
      system to consider ways to mitigate the vulnerabilities. If the mitigation strategy
      suggests enhancements to the Online 5081 system, the IRS will make that decision

                                                                                           Page 14
        The Customer Account Data Engine 2 Database Was Initialized;
          However, Database and Security Risks Remain, and Initial
         Timeframes to Provide Data to Three Downstream Systems
                             May Not Be Met


weighing the risks to the CADE 2 database against the costs in time and resources to do
the system enhancements.
Office of Audit Comment: The Online 5081 system is missing historical information
such as account creation date, purpose of the account, and the last two review dates. The
IRM requires this information to be documented and maintained.




                                                                                  Page 15
                      The Customer Account Data Engine 2 Database Was Initialized;
                        However, Database and Security Risks Remain, and Initial
                       Timeframes to Provide Data to Three Downstream Systems
                                           May Not Be Met


                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective was to review the CADE 2 database implementation and ensure that the
database was secure, accurate, and complete, and that prior weaknesses identified were corrected
or mitigated. To accomplish our objective, we:
I.         Reviewed the architectural configuration for the database environment to identify control
           points and ensure weaknesses are identified and mitigated.
           A. Reviewed the architectural diagram for the application environment and used it to
              identify potential control weaknesses.
           B. Determined the impact to the database, impacted systems, and taxpayers of any
              control weaknesses not mitigated.
II.        Determined if the database is properly secured.
           A. Reviewed the results of two independent assessments performed by contractors.
           B. Determined if weaknesses identified by the December 2011 Guardium scan were
              corrected.
           C. Determined if the database is secured and privileged user accounts are limited,
              monitored, and reviewed. There were 383 privileged user accounts and we
              judgmentally selected1 five service accounts and five database administrator accounts
              for review.
           D. Determined if default (demo) tables were properly secured, removed, or disabled.
III.       Determined if data integrity controls are developed and operating as designed to ensure
           data are accurate and complete.
           A. Interviewed a balancing and control subject matter expert and the ETL subject matter
              expert for the database and obtained documents detailing the balance and control
              policy, procedures, and processing.
           B. Determined if weaknesses identified in the ETL process were corrected or mitigating
              controls were developed and implemented.
           C. Reviewed any other code reviews performed on the CADE 2 database, including
              cycle synchronization and daily updates.

1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 16
               The Customer Account Data Engine 2 Database Was Initialized;
                 However, Database and Security Risks Remain, and Initial
                Timeframes to Provide Data to Three Downstream Systems
                                    May Not Be Met


       D. Ensured that data transfers between input data sources and the audited database are
          complete and accurate.
       E. Determined if the processes for ensuring database consistency during cycle
          synchronization and daily update address the accuracy and completeness of data.
IV.    Reviewed downstream system/application interfaces and impact(s).
       A. Interviewed the subject matter expert for system interfaces to gain an understanding
          of how system interfaces and impact are determined.
       B. Determined if interfaces are secured.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRM, related CADE 2 documents, and
guidelines and processes in the development of the CADE 2 database. We evaluated these
controls by conducting interviews and meetings with management and staff, attending CADE 2
Database Implementation meetings, and reviewing CADE 2 Program documentation and
CADE 2 Database Implementation documents such as the CADE 2 Program Charter, CADE 2
Solution Architecture, CADE 2 Database Implementation Test Plan, CADE 2 Program
Management and Integration Plan, CADE 2 Program Road Map, and CADE 2 Interface Control
Document, and other documents that provided evidence of whether IRM systems testing
processes were followed and if those processes were adequate and operating as designed.




                                                                                        Page 17
               The Customer Account Data Engine 2 Database Was Initialized;
                 However, Database and Security Risks Remain, and Initial
                Timeframes to Provide Data to Three Downstream Systems
                                    May Not Be Met


                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny R. Verneuille, Director
Larry W. Reimer, Audit Manager
Mark K. Carder, Senior Auditor
K. Kevin Liu, Lead Information Technology Specialist
Hung Q. Dam, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist




                                                                                     Page 18
              The Customer Account Data Engine 2 Database Was Initialized;
                However, Database and Security Risks Remain, and Initial
               Timeframes to Provide Data to Three Downstream Systems
                                   May Not Be Met


                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Modernization Program Management Office OS:CTO:MP
Director, Security Risk Management OS:CTO:C:SRM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W:S:PRA:PEI
       Director, Risk Management Division OS:CTO:SP:RM




                                                                               Page 19
                      The Customer Account Data Engine 2 Database Was Initialized;
                        However, Database and Security Risks Remain, and Initial
                       Timeframes to Provide Data to Three Downstream Systems
                                           May Not Be Met


                                                                                                      Appendix IV

            Management’s Response to the Draft Report                                                            1




1
    The final audit report title was revised based on discussions with the IRS after the issuance of the draft report.
                                                                                                                     Page 20
The Customer Account Data Engine 2 Database Was Initialized;
  However, Database and Security Risks Remain, and Initial
 Timeframes to Provide Data to Three Downstream Systems
                     May Not Be Met




                                                       Page 21
The Customer Account Data Engine 2 Database Was Initialized;
  However, Database and Security Risks Remain, and Initial
 Timeframes to Provide Data to Three Downstream Systems
                     May Not Be Met




                                                       Page 22
The Customer Account Data Engine 2 Database Was Initialized;
  However, Database and Security Risks Remain, and Initial
 Timeframes to Provide Data to Three Downstream Systems
                     May Not Be Met




                                                       Page 23
The Customer Account Data Engine 2 Database Was Initialized;
  However, Database and Security Risks Remain, and Initial
 Timeframes to Provide Data to Three Downstream Systems
                     May Not Be Met




                                                       Page 24
The Customer Account Data Engine 2 Database Was Initialized;
  However, Database and Security Risks Remain, and Initial
 Timeframes to Provide Data to Three Downstream Systems
                     May Not Be Met




                                                       Page 25
